DEPARTMENT OF HOMELAND SECURITY 


   Office of Inspector General


    Audit of ICE'S Budgetary Status
      And Other Areas of Concern




            Office of Audits
                               August 2005
                                                                         Oflce of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528


                                                                        Homeland
                                                                        Security
                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296)by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports published by the OIG as
part of its DHS oversight responsibilities to promote economy, effectiveness, and efficiency within
the department.

The attached report presents the results of the audit requested by former Representative Jim Turner,
Ranking Member of the Select Committee on Homeland Security, U.S. House of Representatives.
He requested that we evaluate budget problems at ICE, review the Federal Financial Management
System, and consider other related areas of concern. We contracted with the independent public
accounting firm KPMG LLP to perform the audit. KPMG is responsible for the attached auditor's
report and the conclusions expressed in it.

The recommendations herein have been discussed in draft with those responsible for
implementation. It is our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the preparation of this
report.


                                             -/             8.&-dJ
                                              Richard L. Skinner
                                              Inspector General
                            KPMG LLP
                            2001 M Street, NW
                            Washington, DC 20036




October 15, 2004

Inspector General
U.S. Department of Homeland Security

KPMG LLP (KPMG) is pleased to submit this performance audit report, Audit of ICE'S
Budgetary Status and Other Areas of Concern, in fulfillment of our contract with the
Department of Homeland Security (DHS) - Office of Inspector General (OIG). The OIG engaged
us to evaluate certain budgetary and financial system matters a t Immigration and Customs
Enforcement (ICE), as identified in a letter from former Representative J i m Turner, Ranking
Member of the Select Committee on Homeland Security, U.S. House of Representatives. A list of
these concerns is presented in section 1.0 of this report.

We conducted our audit from August 2, 2004 through October 15, 2004, i n accordance with
Generally Accepted Government Auditing Standards issued by the Comptroller General of the
United States, except for certain limitations a s described in section 1.3. The purpose of this
report is to communicate the results of our efforts. As such, we have captured in section 2.0 a
detailed discussion of our findings pertaining to each issue or concern expressed in the
Representative's letter.

Since October 15, 2004, we have not performed any additional audit procedures with respect to
this report, except as specifically noted in our report, and have no obligation to update this report
or to revise the information contained therein to reflect events occurring subsequent to October
15, 2004. We note that the OIG has directed us to explore in further depth, through a separate
audit and report, the causes and effects of ICE'S budget difficulties, in response to
Representative Turner's letter.

We have shared the results of our audit with the OIG and officials from ICE, Customs and
Border Protection, Citizenship and Immigration Services, and the DHS Office of the Chief
Financial Officer and have incorporated official comments from the Assistant Secretary, ICE, in
section 4.0. Our report to you, dated October 15, 2004, represents our final report and completes
the services agreed to be provided by us. We appreciate the opportunity to serve the OIG and
DHS.
Bureau ofImmigration and Customs Enforement (~cE)
AL?DIT OFICES BUDGETARYSTATUSA X 9 OTHERAREAS OF CONCERN




                                                             Table of Contents
                                                                                                                                                      Page

EXECUTIVE SUMMARY ...............................................................................................................................1 

    BUDGET    AT ICE ................................................................................................................................... 1

         ISSUES
    FEDEMLFINANCIAL
                  MANAGEMENT             ........................................................................... 2 

                               CAPABILITIES

                          SYSTEM




1.0 BACKGROUND ......................................................................................................................................
                                                                                                                                                   4 

     1.1       OBJECTIVESAND SCOP.........................................................................................................................
                                  E                                                                                                                        4





2.0       RESULTS OF AUDIT .............................................................................................................................
                                                                                                                                                    7
     2.1 BUDGET PROBLEMS AT ICE ............................................................................................................ 7 

               2.1.1                                  ............................................................................................... 7 

                              Compliance with the Antideficiency Act
     2.2 FEDERAL FINANCIAL JfANAGEMENT SYSTEM FUNCTIONALITY ................................... 10 

         2.2.1 ICE'S Configuration of FFMS Affected Controls, Reporting, and Ease of Use ...................................                          11
         2.2.2 Previous Audit Reports Did Not Identify Flaws Specific to FFMS ..................................................... 12 

         2.2.3 FFMS Was Selected for Its Scalability and JFMIP Compliance ........................................................1 3 

     2.3 STATUS OF OTHER CONCERNS.................................................................................................... 14 

               2.3.1          Temporary Employees Were Unable to Become Permanent Due to Budget Difficulties ................... 15 

               2.3.2          Travel Manager Disruptions and Processing Delays ......................................................................... 15 

               2.3.3          Insufficient Funds for Inventory Purchases Could Not Be Supported ..............................................17 

               2.3.4          Lack of Integration Made Procurements Hard to Track .....................................................................
                                                                                                                                                   17
               2.3.5          Untimely Vendor Payments Were Relatively Small ............................................................................18 


3.0 RECOMMENDATIONS ......................................................................................................................

                                                                                                                                        -19

4.0 MANAGEMENT'S RESPONSE AND OUR ANALYSIS .....................................................................20 

                   ............................................................................................................................
     4.1 RECOMMENDATIONS                                                                                                                                          20 

     4.2 OTHER MATTERS. ..................................................................................................................................2 1 

     4.3 ASSISTANTSECRETARY
                        OF THE                                    S. IMMIGRATIONAND
                                                                                CUSTOMSENFORCEMENT
               MEMORANDUM.. ...................................................................................................................................   24 


APPENDIX A: LIST OF DOCUMENTS REVIEWED .................................................................................2 8 


APPENDIX B: LIST OF ABBREVIATIONS ................................................................................................2 9 


APPENDIX C: REPRESENTATIVE TURNER'S LETTER .........................................................................
                                                                                                                  30

KPMG LLP KPMG LLP. a U S llmlted liab~itypartnership, is
a member of KPMG Inlernat~onal.a Swlss a5soclallo:l
Bureau ofImnurmgration
                    and Customs Enforcement (rCE)
AUDIT OFICES BLZIGETARYSTATUSAhDOTHER-
fid Report


                                                            EXECUTIVE SUMMARY
The Office of Inspector General (OIG) of the Department of Homeland Security (DHS)
engaged KPMG LLP (KPMG) to review certain budget related issues pertaining to
Immigration and Customs Enforcement (ICE) t h a t were raised by former Representative
Jim Turner, Ranking Member of the Select Committee on Homeland Security, in July
2004. A copy of Representative Turner's letter is included as Appendix C. Representative
Turner requested t h a t the OIG:

      Evaluate budget problems a t ICE, particularly any violations of the Antideficiency
      Act;
      Review the Federal Financial Management System (FFMS)l due to allegations raised
      by ICE staff that it was not providing accurate, useful, and timely information to
      decision-makers; and
      Consider allegations raised by ICE staff with respect to the transfer of funds, on a
      daily basis from the Border and Transportation Security (BTS) Directorate, to avoid
      budget shortfalls; budget reporting challenges; temporary employees' status; travel
      database disruptions; funding for critical repairs; procurement tracking difficulties;
      and late vendor payments.

We conducted our audit from August 2, 2004, through October 15, 2004, according to
Generally Accepted Government Auditing Standards issued by the Comptroller General
of the United States, except for certain scope limitations as described in section 1.3 -
Limitations. The results of our audit are summarized below.

BUDGET ISSUES AT ICE

During FY 2004, ICE reported budget hardship and, based on our review of a n internal
memorandum, took steps to curtail spending. Additionally, the Independent Auditors'
Report for DHS' FY 2004 financial statements2further noted accounting problems a t ICE.
The auditors' report concluded that weaknesses in controls a t ICE might have allowed
ICE to violate the Antideficiency Act or might have prevented management from knowing
if ICE had violated the Antideficiency Act. As a result, we were unable to rely on ICE'S
processes or financial data to determine its compliance with the Act. Management
represented that ICE was not in violation of the Antideficiency Act during FY 2004. We
were unable to confirm employee concerns with respect to funds being transferred to ICE
on a daily basis from BTS.

Moreover, during FY 2004, the following events negatively impacted the financial
management resources of ICE:




1FFMS is now marketed a s Altimate
2Independent Auditors'Report on DHS FYZOO4 Financial Statements, Audit Report No. OIG-05-
05, November 2004.
KPMG LLP KPMG LLP. a US. ,mlled 18ablIhly parlnershlp, is
u member o l KPhilG Inlernatlo;al a Swiss assomalaon
Bureau ofImmigration and Customs Enforcement (ICE)
AUDIT OFICES BUDGETARYSTATUSANDOTHERAREAS OF CONCERN



     ICE'S financial workload increased because ICE began providing additional accounting
     functions for several major DHS components, and assets and operations were
     transferred both in and out of ICE as a result of DHS' organizational changes;
     ICE was unable to reach agreement with other DHS bureaus on the amount of
     reimbursements t h a t they owed for services ICE provided until late in the fiscal year;
     and
0    ICE experienced turnover in several key accounting positions, starting in the summer
     of 2003, and had insufficient resources to perform its financial management
     responsibilities.

FEDERAL FINANCIAL MANAGEMENT SYSTEM CAPABILITIES

ICE configured FFMS i n a way that made funds management more difficult and made
certain reports that users needed to do their jobs difficult to access. ICE officials
recognized this concern but believed FY 2004 presented unique and complex problems as
a result of the creation of three new DHS bureaus, including itself, out of two legacy
agencies. ICE'S configuration of FFMS has resulted in:

      Confusion a t operating units about availability of funds for expenditures;
      Reporting difficulties, e.g., system queries were difficult to perform; and
0     Lengthy learning curves and the need for greater training on the use of FFMS,
      especially for employees that transferred from agencies other than the legacy
      Immigration and Naturalization Service (INS).

In addition, when reviewing reports prepared by government oversight bodies or other
independent consulting firms, we noted:

      Previous audit reports did not identify system flaws specific to FFMS;
0     One independent systems review ranked FFMS highly when compared with other
      financial systems of the largest agencies transferred into DHS;
      Another independent systems review produced similar results, showing that FFMS
      was both scalable and compliant with requirements of the Joint Financial
      Management Improvement Program; and
      ICE had made enhancements and planned improvements to alleviate concerns.

STATUS OF OTHER CONCERNS RAISED BY REPRESENTATIVE TURNER

Our review of the remaining concerns raised by ICE staff to Representative Turner
disclosed that:

      BTS mandated a hiring freeze in FY 2004, and ICE was unable to make temporary
      employees in the Office of the Principal Legal Advisor (OPLA) permanent due to
      insufficient budget resources;
      Travel Manager (TM) system operations were disrupted due to shortcomings during
      its deployment, resulting in delays in processing travel related requests;

KPMG LLP KPMG LLP. a U.S limiled ihablhly parlncrslrip, ,a
n member of KPMG Inlcroat~onal,a S w ~ s sassocialton
Bureau of Imm&-ationand Customs Enforcement OCE)
AUDIT OFICES BUDGETARYSTATUSAh?DOTHERA
fial Report


     We were unable to substantiate the lack of funding for fuel, parts, ammunition, and
     critical repairs for aircraft;
     Procurements were difficult to track due to the lack of integration of the procurement
     system with FFMS and shortcomings in the procurement structure and process; and
     We did not identify any significant late vendor payments.

OVERALL RECOMMENDATIONS

ICE should address its accounting problems, as detailed in the Independent Auditors'
Report for the FY 2004 DHS financial statements, in order to establish reliable financial
reporting. Without reliable financial reporting, ICE will not be able to demonstrate t h a t
it has complied with the Antideficiency Act. Once ICE has reliable financial data, it
should perform a n in-depth review of its FY 2004 activities to determine whether there
were instances of violations of the Antideficiency Act. Additionally, ICE should continue
monitoring the FY 2004 Salaries and Expense account for compliance with the
Antideficiency Act.

ICE should complete its reconfiguration of FFMS, ensuring that the changes to the
system will correct the current problems caused by ICE'S poor configuration of funds
control. By so doing, better reports can be provided to users. Also, ICE should continue
its efforts with respect to training employees on the new system features.

Moreover, while ICE has made strides in improving its procurement and contracts
management function, there still remains room for improvement. ICE should continue
with its plans to integrate the procurement system with FFMS to afford field office staff
the ability to track, on a real time basis, the status of their procurement actions, track
procurement commitments, and better assess the availability of their funds.

We have not made recommendations regarding temporary employees, the TM system, and
vendor payments. ICE was not in a position to change temporary OPLA employees to a
permanent status, ICE appeared to have implemented remediation actions for TM, and
we were unable to validate significant problems with vendor payments within the time
allotted for fieldwork. Recommendations to address deficiencies found by the financial
statement auditors are contained in the Independent Auditors'Report for DHS' FY 2004
financial statements.




KPMG LLP KPMG LLP, a US. lhmled h a b ~ l ~parlncrsmp
                                              ly      m
                                                      a
a member of KPtdG lnlernal,onaI a S w s s assac~al~on
Bureau of Immimation and Customs Enforcement QCE)
A D I T OF ICES BLTDGETARYSTATUSAND OTHERA R M OF CONCERN



1.0 BACKGROUND
The creation of the Department of Homeland Security (DHS) resulted in the consolidation
of 22 federal organizations and approximately 180,000 employees in March 2003. As a
result of DHS' creation, the former U.S. Customs Service (Customs) and the Immigration
and Naturalization Service (INS) were reorganized into three new bureaus, collectively
called the Tri-bureaus: Immigration and Customs Enforcement (ICE), Customs and
Border Protection (CBP), and Citizenship and Immigration Service (CIS).

Both CBP and ICE operate under DHS' Border and Transportation (BTS) D'irectorate.
ICE'S mission3, as the "largest investigative arm of the DHS, is to [detect and eliminate]
vulnerabilities in the nation's border, economic, transportation, and infrastructure
security". ICE employs approximately 20,000 employees to execute its mission.

Fiscal year (FYI 2004 was a year of significant change for ICE with respect to financial
management and reporting. For the first time, ICE'S budget reflected the new Tri-bureau
reorganization, which necessitated the division of personnel, services, resources, assets,
and liabilities among CBP, CIS and ICE. Additionally, ICE began providing accounting
services for several significant components of DHS and other support services to CBP and
CIS. ICE also experienced turnover in several key financial positions starting in the
summer of FY 2003.

1.1 OBJECTIVES AND SCOPE

The Office of Inspector General (OIG) engaged KPMG LLP (KPMG) to review certain
budget related issues pertaining to ICE that were raised by former Representative Jim
Turner, Ranking Member of the Select Committee on Homeland Security, in a letter
dated July 14, 2004. A copy of Representative Turner's letter is included as Appendix C.
The objectives of the audit, as requested by Representative Turner, were to:

      Examine budget problems at ICE, particularly violations, if any, of the Antideficiency
      Act;
      Review ICE'S Federal Financial Management System (FFMS) due to allegations that
      it was not providing accurate, useful, and timely information to decision-makers; and
      Consider several concerns raised by ICE staff regarding the transfer of funds, from
      BTS to ICE, on a daily basis to avoid budget shortfalls; budget reporting matters;
      temporary employees' status; travel database disruptions; money for critical repairs;
      procurement tracking challenges; and late vendor payments.

We conducted the work from August 2, 2004, through October 15, 2004, at Washington,
D.C. locations for ICE. We focused our analysis of budget related data and information to
FY 2004. Due to the nature of the audit objectives, we limited our consideration of
internal controls to financial reporting for the first objective and to gaining an
understanding of relevant processes for the second and third objectives.

3 ICE'S mission and responsibilities are captured on the Fact Sheet located at
http~//www.ice.gov/graphics/news/factsheets/100604ice.htm1.
KPMG LLP KPMG LLP, a US. lhrniled lhablllly parlncrshlp.   is
a mornber of KPhlG Inlematlonal a Swlss sssoclallon
Bureau of Immigration and Customs Enforcement (ICE)
A LJDIT OFICES BLJDGETMYSTATUSM OTHERAREAS OF CONChEN




The purpose of this report is to present the results of our audit (section 2.0), and our
recommendations (section 3.0). We performed the audit according to Generally Accepted
Government Auditing Standards issued by the Comptroller General of the United States,
except for certain scope limitations as described in section 1.3 - Limitations.

1.2     APPROACH

To achieve the objectives of our audit and address the critical areas included in the project
scope, our review consisted of interviews, document reviews, and certain corroborative
procedures, as discussed below:

      Internalinterviews- We met with and interviewed key officials within ICE's
      Financial Reporting, Procurement, Budget, Human Resources, and Information
      Systems divisions to understand the various functions and activities, critical
      information systems, and controls (checks and balances) for relevant functions
      associated with the issues noted in Representative Turner's letter. We also
      interviewed officials a t CBP, CIS, and DHS. Additionally, to gain a better
      understanding of FFMS, we interviewed various Savantage4 officials and functional
      staff and observed the demonstration of FFMS functionality: specifically, ICE's setup
      and maintenance configuration for FFMS, financial reports generated against the
      current configuration, financial reports under development, and other configuration
      capabilities of FFMS that ICE was not utilizing.
      Document reviews- To corroborate information gathered from the various interviews,
      we reviewed internal documentation, i.e., memoranda, briefings, reimbursable
      agreements, and schedules, and external reports and documents relevant to the
      specific issues that were available a t the time of our evaluation. A list of such
      documents is presented in Appendix A. To better understand the budget authority
      allocated to ICE for N 2004, we reviewed the President's Budget report and other
      OMB generated budget documents, as presented a t OMB's Internet site.
       Corroboration - finctional evaluation - We also reviewed and considered the results of
      internal assessments that management conducted, external audits and studies
      conducted by government oversight bodies and independent consultants, and the
      results of the N 2004 DHS financial statement audit.

1.3     LIMITATIONS

We requested, through Representative Turner's Committee office, to speak with the ICE
employees who raised the above issues with Representative Turner's staff to better focus
our procedures. Members of Representative Turner's staff told u s that the ICE employees
were unwilling to meet or talk directly with representatives from either KPMG or the
OIG. Therefore, lacking any specific information about the nature and extent of each
concern, we could not target certain issues, a s we would have preferred, to better apply
our audit procedures. Instead, we focused our effort on establishing the timeframe during
which the problems could have occurred and determining whether the general processes

  Savantage was the developer and vendor of FFMS.
Bureau ofImmigrationand Customs Enforement QCE)
AUDIT OFICPS BL?LlGETARYSTATLrSAhDOTHERAREAS OF CONCERN
f i a l Report


in place during this timeframe could have caused, or significantly contributed to, the
alleged problems.

Because the ICE employees who raised concerns with Representative Turner were
unwilling to speak with KPMG or the OIG, we were unable to verify directly with them
whether they continued to experience problems associated with ICE'S budget situation or
with FFMS.

Additionally, generally accepted government auditing standards require that we
adequately plan the audit to encompass a methodology that will provide sufficient,
competent, and relevant evidence to achieve the objectives of the audit, and then obtain
such evidence to support our findings and conclusions. We were unable to perform
detailed testing of budgetary transactions necessary to determine compliance with the
Antideficiency Act because of deficiencies in ICE'S accounting operations and financial
reporting, as reported by ICE'S external financial statement auditors, and the short audit
timeframe allowed for fieldwork. The short audit timeframe also prevented us from
extending our audit procedures, with respect to the other areas of concern, to sufficiently
corroborate information provided to us by management. As such, we relied on internal
memoranda and other supporting documents provided by management and the results of
our interviews to form our conclusions.

Had we been able to perform additional procedures, or had we been able to speak with the
ICE employees who raised concerns with Representative Turner's staff, our conclusions
might have been different.




KPMG LLP KPMG ILL?, a U S lhmlled l~ab,l~ly
                                          partneral~p,IS
a member ol IKPMG Inlerna1,onal a Svms assmalton
Bureau ofImrmhation and CustomsEnfrcement (ICE)
A LDT OFICES BLDGETARYSTATUSAIW OTHERAREAS OF CONCERN
f i a l Report


2.0           RESULTS OF AUDIT
2.1        BUDGET PROBLEMS AT ICE

In March 2004, ICE projected a budget deficit of over $1 billion for FY 2004. ICE
attributed the shortfall to Tri-bureau reorganization issues ($717 million) and program
operating challenges ($306 million). ICE officials said it did not receive sufficient budget
authority to cover its responsibilities and the services it had to provide CBP and CIS, as a
result of the Tri-bureau reorganization, although CBP and CIS had disagreements with
ICE over how much ICE was owed. ICE officials also said that ICE's operating budget
was squeezed by numerous budget rescissions and insufficient allocations to maintain FY
2003 staffing levels; cross train investigators; provide adequate volumes of detention
beds; and upgrade journeyman pay grades for agents.

Based on interviews and documents provided by ICE, ICE settled approximately $607
million of the $717 million shortfall through reimbursable agreements and transferred-in
budget authority. To cover the remaining budget gap ($416 million), ICE and BTS issued
directives to cut costs through such methods as a hiring freeze and procurement and
travel restrictions.

2.1.1 Compliance with the Antideficiency Act

Management Represented that ICE Was Not in Violation of the Antidefiiencv Act

Background: Representative Turner requested that we examine any violations of the
Antideficiency Act. The Antideficiency Act prohibits agencies from obligating or spending
more than their appropriations5. ICE officials said that ICE was not in violation of the
Antideficiency Act during the year; however, the Independent Auditors'Report for DHS'
FY 2004 financial statements6 noted serious accounting problems a t ICE that affected the
reliability of its financial reporting. The financial statement auditors noted that during
FY 2004:

      Errors in ICE's proprietary7 and budgetary accounts were so pervasive that the
      auditors could not complete their audit procedures for ICE and the components it
      serviced;


5 Generally, under the Antideficiency Act, agencies cannot (1)spend beyond the amount available
in a n appropriation unless authorized by law, (2) involve the government in any contract or other
obligation for payment of money for any purpose in advance of appropriations unless authorized by
law, and (3) accept voluntary services or employ personal services i n excess of that authorized by
law, except in cases of certain emergencies. See 31 USC $5 1341-1351.
6 Independent Auditors'Report on DHSFY2004 Financial Statements, Audit Report No. OIG-05-
05, November 2004.
7 According to Statement of Federal Financial Accounting Concepts No. 1, Objectives ofFederal
FinancialReporting proprietary accounts are used to record assets and liabilities and other
information on transactions not included i n budgetary accounts. Reports based on proprietary
accounts are said to present "financial position" and "results of operations". Budgetary accounts
capture transaction information related to such things as budget authority and obligations.
KPMG LLP KPMG LLP, a U S. lhmlled 4ablllly partnersly, .s
a nrernheraf IKPMG Inlernallonal a Swiss assoilallon
Bureau ofImmigration and Customs Enforcement (ICE)
AUDIT OF ICES BUDGETARY STATUSA2M) OTHERAREAS OF CONCERN
f i d Report


0    ICE financial systems, processes, and control activities were inadequate to provide
     accounting services for itself and the other DHS operating units it serviced;
     ICE fell behind in the performance of basic accounting functions such as account
     reconciliations, analysis of material abnormal balances, and proper budgetary
     accounting;
0    ICE was unable to determine or record proper entries to its accounts to make them
     balance correctly; and
     Weaknesses existed in controls over the preparation, submission, and reconciliation to
     the general ledger of key budgetary report@.

The financial statement auditors also noted the following events during FY 2004 t h a t led
to the above conditions and that severely taxed the financial management resources of
ICE:

     ICE'S financial workload increased because ICE began providing additional accounting
     functions for several major DHS components, a decision finalized late in FY 2003 that
     left little time to thoroughly plan the FY 2004 transition. Further, ICE had to deal
     with the transfer-in and transfer-out of operations and assets associated with the
     creation of the Tri-bureaus;
     ICE was unable to reach agreement with other DHS bureaus on the amount of
     reimbursements they owed for services ICE provided until late in the fiscal year; and
     ICE experienced turnover in several key accounting positions starting in the summer
     of 2003 and had inadequate resources to properly address the above conditions.

Observations: The financial statement auditors concluded that weaknesses in controls a t
ICE might have allowed ICE to violate the Antideficiency Act or might have prevented
management from knowing if ICE had violated the Antideficiency Act. We were unable to
test management's representation that ICE was not in violation of the Antideficiency Act
during the year because we could not rely on ICE'S financial reports.

Based on our interview of DHS budget officials and review of DHS' requests to Congress
to reprogram funds for ICE, we were unable to validate alleged concerns t h a t funds were
transferred to ICE on a daily basis from BTS. We note, however, that without specific
instances or information from the employees who raised this concern with Representative
Turner, it was not feasible to conduct further test work in this area, given the time
restrictions.

Analvsis of Clearing Accounts and SF-133

Background: Although we could not rely on ICE'S financial reporting for determining
compliance with the Antideficiency Act, we reviewed certain risk indicators. Specifically,




8The key budgetary reports referred to are the SF-132, Apportionment andReapportionment
Schedule, and the SF-133, Report on Budget Execution.
IUPMG LLP KPMG LLP a U S !~mllediiabhly parlnershrp, i
a member of KPMG Internetanal a SWISSassocialtan
Bureau ofImmigration and Customs Enforemem! @CE)
AUDIT OFICES BLDGETARYSTATUSANDOTHER-
fial Report


we considered ICE'S clearing accountsg, for the period from April 2004 through August
2004, and noted the balances that remained in these accounts at the end of the fiscal
yearl0. We also scanned fiscal year-end SF-13311for ICE'S largest Treasury account,
Salaries and Expenses (S&E), with total budgetary resources of $2.7 billion for FY 2004.

Our analysis of ICE's clearing account balances showed a significant increase in suspense
account activity during the months of July and August 2004. Also, a significant net
balance existed in ICE'S clearing accounts at the end of the fiscal year. Significant
clearing account balances indicate significant transaction amounts that have not been
posted to proper general ledger accounts. When ICE eventually posts these transactions,
they could potentially result in obligations being posted that are now unrecorded. ICE
officials concurred that the clearing accounts could include unposted obligations.
Additionally, the SF-133 showed relatively little remained in the S&E Treasury account
to cover additional obligations for this account. For example, additional obligations could
potentially occur because of the clearing of suspense accounts, such as when undelivered
orders with other agencies are received but the actual costs exceed the original obligated
amount. l2

Observations: We could not rely on reported year-end balances because of ICE's financial
reporting weaknesses, which included unsupportable proprietary and budgetary accounts,
and inadequate controls over the preparation, submission, and reconciliation of key
budgetary reports; however, if ICE'S financial records were accurate, the $2.7 billion
Salaries and Expenses account had relatively little funding available to cover potential
unrecorded obligations at fiscal year-end. At the time of our fieldwork, this situation
increased the uncertainty about whether the reported balance for this particular account
would be sufficient to cover any potential unrecorded obligations subsequent to fiscal
year-end. Such a determination, however, could not be made within the timeframe of this
audit.




9 Clearing accounts, sometimes referred to a s suspense accounts, are used to temporarily account
for transactions that a n agency knows belong to the Government while it waits for information
that would allow it to match the transaction to a specific receipt or expenditure account. According
to OMB Circular A- 11,Preparation, Submission, and Execution of the Budget, Section 20.11,
clearing accounts should not be used to mask a n overobligation or overexpenditure of a n
expenditure account.
   Financial information supporting the activities within the clearing accounts for the month of
September 2004 was not available a t the end of fieldwork.
l1 The SF-133, Report on Budget Execution and Budgetary Resources, must be submitted to the
Office of Management and Budget on a quarterly basis to monitor the status of a n agency's
budgetary resources. We obtained and scanned this data, subsequent to the completion of our
fieldwork, a t the time DHS submitted its budgetary information to the Department of Treasury.
12 AS undelivered orders are received, invoice amounts potentially could be more or less than the
original recorded obligation. A net increase i n obligations would reduce the balance of funds
available as a cushion.
KPMG LLP KPMG LLP, a U S I~mltadihabtlky perlnsrsh8p. Is
a mernbel of KPMG Internelional a Swiss asaociallon
Bureau ofImmz;Orratiooand Customs Enforcement (ICE)
ALDIT OF ICES BL?DGETARYSTATUSAILI)OTHERAREAS OF CONCERN
fial Report


Review of Deobliaa tions:

Background: ICE officials indicated to us that ICE deobligatedl3 over $400 million a t the
end of the year. Deobligating funds is appropriate for such things as correcting errors or
releasing funds when they are no longer needed; however, a violation of appropriations
law could potentially occur if funds were deobligated but still required to fund activities
for which they were originally obligated. ICE officials told us that the deobligations
largely represented a reclassification of obligations from one category to another due to
agreements put in place late in the fiscal year to reimburse ICE for services it had
provided other bureaus. ICE officials said there was no effort to deobligate funds in order
to make them available to cover a budget shortfall. Although we were unable to test
management's assertion because of time constraints, as noted earlier, ICE received
reimbursement and transferred-in budget authority of approximately $607 million, most
of it late in the fiscal year, which is consistent with management's assertion.

Observations: ICE officials said that transfers of funds and reimbursable agreements put
in place late in the fiscal year prompted a large reclassification of obligations and
explained the significant deobligations a t year-end. Working in tandem with the financial
statement auditors, we attempted to substantiate whether or not deobligations were
appropriately made a t year-end, but were unable to finish our test procedures within the
timeframe of this project.

2.2        FEDERAL FINANCIAL MANAGEMENT SYSTEM FUNCTIONALITY

FFMS is ICE's core financial management system and maintains ICE's official general
ledger accounts, including its budgetary accounts. Other systems, such a s travel and
payroll systems, feed accounting data to FFMS.

According to Representative Turner's letter, his staff interviewed ICE employees a t DHS
headquarters and three large field offices. His letter cited the following allegations about
FFMS:

      FFMS placed ICE a t risk of violating the Antideficiency Act;
      Staff were unable to pinpoint funds availability for important functions;
      Interviewees lacked confidence in the accuracy, usefulness, and timeliness of FFMS
      reports to manage funds;
      FFMS did not provide consolidated information, so staff had to run multiple reports
      and manually combine data to get information on funds availability; and
      The department's decision to continue using FFMS was puzzling in light of
      Government Accountability Office (GAO) reports that allegedly exposed problems with
      FFMS and wide recognition that the system was inherently flawed.




                                                -



13   A deobligation is generally a "reversal" of an obligation or cancellation of a contractlorder.
KPMG LLP KPMG LLP, a U.S. limled lhabtl~typarlnershp   is
a meinher of KPMG hlernalional a Sums assaclal,on
Bureau of Immigration and Customs Enforcement (ICE)
A LJDIT OFICES BLJDGETARYSTATUSAND OTHER A R M OF CONCERN
E n d Report



2.2.1 ICE'S Configuration of FFMS Affected Controls, Reporting, and Ease of Use

Shortcomings in Funds Control:

Background: Agencies are required by the Antideficiency Act to have a system of
administrative controls, also called funds control, to prevent the over obligation of
appropriations. FFMS has the capabilities to provide such controls; however, ICE chose
to set funds control within FFMS at a high organizational level rather than at individual
operating units. Setting funds control at a high organizational level might have allowed
headquarters to move funds more easily among appropriation sub-accounts, although we
were unable to verify such transfers; however, with funds control set at this level, we
observed that operating units could easily overobligate their budget allocations. Because
of ICE's account structure, other units could then end up unexpectedly short of funds.
Headquarters budget personnel also had the ability to move funds among these sub-
accounts, with or without notice. ICE officials said this situation created uncertainty and
difficulty tracking funds availability for both field and headquarters staff.

Reimbursable agreements for services provided by ICE to its customers (e.g., CBP and
CIS) added further complexity to this situation. Throughout the first three quarters of
fiscal year 2004, ICE continued to incur costs on behalf of CBP and CIS. In the absence of
reimbursable agreements, internal budget reports indicated that ICE used its budget
authority to fund the cost of services provided to CBP and CIS. Based on audit
procedures aimed at understanding ICE's costing methodology and substantiating
eventual reimbursable agreements, supporting documentation was not readily available
or complete to allow us to verify the assignment of costs by customers. Given that the
costs or expenditures were applied against ICE'S budget authority, as opposed to
reimbursable authority, ICE had difficulty tracking and accounting for the costs of
services it provided to other bureaus under reimbursable agreements. As such, an ICE
official indicated that ICE budget staff expended considerable effort identifying and
reconciling reimbursable costs so as to properly reflect funds availability by program area.

Observations: As a result of ICE's configuration of FFMS, automated controls were not
utilized to enforce budget limits at the operating unit level. This created uncertainty
related to funds availability for operating units. We have noted, based on discussions
with ICE officials and review of internal documentation related to planned changes to
FFMS, that ICE is planning to implement funds control at a lower level, i.e., operating
unit or program division and budget object class levels.

Reporting Difficulty:

Background: ICE's decision to set funds control a t a high organizational level has also
created reporting problems. The only reliable tally of funds availability was at the higher
account level where the system enforced funds control. Also, ICE's funds allocation
structure was not necessarily straightforward and could be complicated for operating
units. As a result, units had to manipulate and analyze data to get reliable information
on funds availability--aprocess that could be time-consuming and was considered
inefficient by many personnel.
Bureau ofImmigxation and CustomsEnforcement (IGE)
A D I T OF ICES BLDGETARY STATUSAhD OTHER-
a d Renort



ICE officials also told us that, although FFMS could generate various reports, the user
needed to know what setup "strings" or codes to use to get the best output. Because
FFMS had numerous setup strings, making the correct selection could be difficult for a
new user. We observed t h a t when a requestor used inappropriate or unnecessary criteria
in a query, FFMS had to "spool", or work its way, through the respective data, thus
slowing report production. We were told that report production also slowed when payroll
transactions were processed, but that the problem had been addressed by processing
payroll after normal work hours. FFMS' vendor also said t h a t some servers took longer to
r u n reports.

Observations: Users indicated t h a t they had to convert extracts of data into a n Excel
spreadsheet format and spend considerable time manipulating and analyzing the data to
arrive a t a true picture of funds availability. We observed during a demonstration of the
system that, as a result of the current configuration, standard budget reports generated
by the system did not provide meaningful information. We noted, however, that ICE has
expended considerable effort developing and implementing a series of enhancements to
FFMS to improve its performance, based on our review of screenshots and other related
documents, and discussions with ICE officials and the FFMS vendor. We could not,
however, verify t h a t the users who spoke with Representative Turner's staff continued to
experience problems with timeliness of FFMS reports. As discussed in Background, the
users who contacted the Representative's office were unwilling to speak directly with
either KPMG or the OIG.

ICE management told us that further improvements were either in progress or planned,
including a modified query screen to show summary budget information in a more user-
friendly format, along with detailed commitment, obligation, expenditure, and available
balance information listed by object and sub-object class.

Length v Learning Curve and Inadeaua te Training:

Background: An independent study, discussed below, noted t h a t employees transferring
to ICE from the legacy U.S. Customs Service faced a significant learning curve when
switching to FFMS. Some interviewees attributed the frustration with FFMS' reports to
inadequate training. Also, some interviewees told us they had to work longer hours
because of these reporting difficulties.

Observations: We noted a significant learning curve with FFMS, and some interviewees
considered inadequate training to be a contributing factor in user frustration with FFMS'
reports.

2.2.2          Previous Audit Reports Did Not Identify Flaws Specific to FFMS

Background: In his letter, Representative Turner was concerned about the department's
decision to continue using FFMS for ICE despite problems reported by GAO. Based on




KPUG LLP KPMG LLP, a U S i m i l i d lhablllty parlnershlp is
a membor of KPMG I!>lcrnamnal a Swiss assmallon
Bureau of Immigration and Customs Enfomement (ICE,
A.XIIT OFICE'S B.XIGETARYSTATUSAND OTHERAREAS OF CONCERN



our review of prior audit reports14, legacy INS was criticized for not having a n integrated
financial management system; that is, INS' core financial system was not integrated with
other stand-alone systems, resulting in difficulties producing financial statements. Prior
to FY 2003, INS was also concurrently using both FFMS and its "old" financial systems to
capture data and manage funds. In FY 2003, however, legacy INS completed the
migration to FFMS.

Observations: Prior audit findings that we reviewed did not identify flaws specific to
FFMS' functionality, but instead advocated the need for INS to move toward a unified
financial management system environment.

2.2.3 FFMS Was Selected for Its Scalability and JFMIP Compliance

Background: ICE officials said two reports played a role in the decision to retain FFMS
for ICE:

   I n December 2002, in preparation for the official creation of DHS in March 2003, the
   consulting firm Science Applications International Corporation (SAIC)l5 conducted a n
   analysis of the financial management processes and systems of the largest agencies
   transferring into the new Department. Those agencies were: (1) Federal Emergency
   Management Agency (FEMA), (2) INS, (3) Transportation Security Administration
   (TSA), (4) Coast Guard, (5) Customs, and (6) Secret Service. SAIC's analysis included
   a n assessment of each agency's financial systems' compliance with JFMIP16 system
   requirements.
   In August 2003, International Business Machines Corporation (IBM) performed a five-
   day rapid study comparing FFMS with Customs' Federal Financial System (FFS)17,
   which was also used by CBP until FY 2005.

SAIC's study ranked the legacy INS' system (FFMS) highly, along with the Coast Guard's
and TSA's systems,l8 for the number or level of system-oriented features19 that support
required JFMIP functions. Conversely, SAIC cited significant deficiencies or limitations

14 Our search led us to the following reports: the Department of Justice (DOJ) Performance
Accountabiljty Report (auditors' report on internal controls) for the past three years and the GAO-
03-1134T report entitled Department of Homeland Security: Challenges and Steps in Establishing
Sound Financial Management, released on September 10, 2003
1QAIC's final report, dated December 27, 2002, is entitled Homelandsecurity Financialsystems
Analysis Final Report.
16 JFMIP was a joint cooperative undertaking of the Office of Management and Budget, the
Government Accountability Office, the Department of the Treasury, and the Office of Personnel
Management, working in cooperation with each other and with operating agencies to improve
financial management practices throughout the federal government. The principals have agreed to
disband JFMIP in 2005.
17 IBM's Functional Comparison of the Federal Financial System and the Federal Financial
Management System, dated August 22, 2003.
18 The Department of Transportation's Delphi System, an Oracle based system, supported TSA's
financial management function. SAIC evaluated the Delphi system.
19 System-oriented features encompass customization, automation, integration, applications,
security, architecture, and standards.
Bureau ofImmi'ation and Customs Enforcement (ICE)
A UDIT OFICES BUDGETARYSTATLLSAND OTHERAREAS OF CONCERN
f i a l Report


with Customs' and the Secret Service's financial systems and moderate deficiencies or
limitations with FEMA's system, with respect to the systems' ability to support all the
JFMIP functions. Further, the study indicated that FFMS and the Coast Guard's
systems were scalable; that is, they had the capability to be enhanced, reconfigured, or
expanded to allow greater interface with other systems. As such, the study cited those
two systems as possible host systems capable of supporting and cross-servicing other DHS
agencies in the near-term; however, a t the time of the SAIC study, the Coast Guard was
in the process of fully implementing all modules of its financial system, with a n expected
completion date of January 2003. Also, although TSA's system ranked among the top
JFMIP supportable systems, it was not considered a viable system to support or adapt to
DHS' organization, a s the system was managed by the Department of Transportation.

Moreover, IBM's study noted t h a t FFS (Custom's financial system) was not JFMIP-
compliant and not scalable because i t was a n "old mainframe system with a high level of
already implemented customization." Conversely, the IBM study noted that FFMS, the
legacy INS system, was scalable and compliant with JFMIP requirements. The IBM
study, however, sounded a cautionary note with respect to FFMS' usability. Unlike FFS,
FFMS did not have simple mainframe forms for user input, and its reporting module
(screens and reports) was not user friendly. According to IBM, FFS' report module would
generate ad hoc reports, and users were satisfied and comfortable with the system. Still,
FFS did not produce financial statements, required nightly processing, lacked "drill down"
capabilities, and could not download data to a spreadsheet.

When ICE was created, CBP was also planning to transition to a new financial
management system. ICE officials said that switching to FFS, then to another new
system, would have been disruptive and difficult for employees. Timing, therefore, also
seemed to play a role in the decision to stay with FFMS.

Observations-' SAIC and IBM assessments of FFMS were favorable in comparison with
some of DHS' other financial systems. CBP's plan to move to a new financial system also
appeared to play a role in retaining FFMS.

2.3   STATUS OF OTHER CONCERNS

Representative Turner asked the OIG to consider several concerns raised by ICE staff
regarding temporary employees, travel databases, money for critical repairs, procurement
tracking, and late vendor payments. Representative Turner associated these concerns
with FFMS or ICE's budget issues. Representative Turner's staff was unable to provide
us with specific cases underlying these general concerns, and the ICE employees who
raised them were unwilling to speak directly with KPMG or the OIG. As such, we took a
broad, top-down approach to investigating these concerns, given our restricted time and
resources. Our approach was to identify a class of employees potentially affected by a n
issue, assess whether the concern was valid, and determine the cause of the concern. We
interviewed key staff in ICE's Budget, Human Resources, Resource Management, and Air
and Marine Operations (AM0)20 divisions, and in the Office of the Principal Legal Advisor
(OPLA) and Office of Investigations.

20 AM0   will transfer back t o CBP i n FY 2005.
Bureau of Immigration and CustomsEnforcement OCE)
A UDIT OF ICES BUDGETARY STATUSAhl) OTHER-
fial Report



2.3.1 Temporary Employees Were Unable to Become Permanent Due to Budget
        Difficulties

Background: Representative Turner said that due to a lack of funds, ICE was unable to
notify temporary employees whether they would transition to permanent status. Our
efforts to investigate this concern led us to OPLA. OPLA officials said they were unable
to transition temporary legal positions to permanent status due to a funding shortfall.

OPLA officials said that, in the past, they typically employed attorneys on a temporary
basis until the required background checks were completed or the attorneys passed the
bar examination. This practice helped INS hire and retain attorneys, and it was
considered just "a matter of time" before temporary attorneys became permanent. Almost
always, the transition from temporary to permanent status was completed within an
agreed upon timeframe; however, given a lack of funds in FY 2004 and expected budget
difficulties in FY 200521,OPLA could not commit to making temporary employees
permanent and filling vacant positions.

OPLA believed its funding shortfall was approximately $74 million. According to OPLA,
INS' legal program originally had 975 legal positions. When the Tri-bureaus were
created, approximately 86 percent of the positions, or 840, were transferred to ICE, but
ICE's OPLA received only 24 percent of the legacy legal budget. To overcome some of the
shortfall, OPLA said that it subsequently received $55 million from CBP and CIS, leaving
a $19 million gap from OPLA's perspective. BTS also instituted a hiring freeze, so OPLA,
in April 2004, ceased employing additional attorneys or transitioning current temporary
employees to permanent status.

Observations: OPLA said it was unable to make temporary employees permanent
because of a funding shortfall. Our interviews did not lead to any other systemic
problems related to the permanent hiring of temporary employees; however, given the
condition of ICE'S budget, it is possible that situations similar to OPLA of which we were
not aware could have occurred. As already noted, Representative Turner's staff was
unable to provide us specific instances to investigate.

2.3.2 Travel Manager Disruptions and Processing Delays

Disru~tionsin Travel Manager System:

Background: Representative Turner reported employee concerns that ICE's travel
system, Travel Manager (TM), was disrupted because of insufficient funds to meet travel
obligations.

Observations: Based on our interviews with TM administrators, we identified only one
disruption in service, for one and one-half days, which TM administrators said
contributed to shortcomings in the TM system around the time of deployment.
---



a Source: OPLA's briefing, dated September 8, 2004, and entitled2005 Funding Analysis for ICE'S
Officeof the PrincipalLegalAdvisor. The figures presented in these documents were unaudited.
Bureau of Immigration and Customs Enforcement QCE)
A m l T OFICES BLDGETARYSTATUSAND OTHER-
Find Report



According to TM administrators, the shortcomings were related to the incorrect setup of
budget and accounting codes within TM, causing the rejection of transactions, and the
incorrect setup of document routing for funding and approval. Moreover, a t the early
stages of deployment, a user had to select from thousands of accounting codes to get a
travel document processed, contributing to users' frustrationZ2. As such, in April 2004,
TM's administrators took TM offline to correct the routing problem and address other
issues. Administrators said that FFMS was still available as a backup system for
travelers to initiate their travel authorizations, although travelers might not have been
aware of this.

Dela ys in Processing Tra vel Docum en ts:

Background: Complaints about TM also included the length of time for travel documents
to be processed. TM administrators said that on a nightly basis, data gets uploaded to
FFMS for a budget and audit check23, to ensure availability of funds and to ensure that
the data meets TM's requirements. During this step, the system may reject documents,
filed electronically by a traveler, for the following reasons:

     Funds may not be available;
     Funding (budgetary accounting) string may be incorrectly selected by the traveler;
     Source of funds (fund code) may be inaccurately selected by the traveler;
     Purpose of the trip (a required field) may not be indicated on the travel request; or
     Funding officiallapprover may be inappropriate.

TM does not notify the traveler when a n underlying travel document is rejected, i.e., is in
a "failed status. As such, the traveler might assume that there have been delays in
processing a travel document rather than a problem with the document itself. If notified
of a rejection, however, the traveler could have an opportunity to correct the problem in a
timely manner. Also, without notification regarding the status of a travel document, the
traveler could also assume that the travel document was held up due to lack of funds,
when the document might have been rejected because of other reasons.

Observations: ICE officials attributed concerns about delays to budget and audit check
rejections, for which the TM system did not generate notifications to employees so that
they could address the problems timely. Based on our interviews and reviews of internal
documentation, ICE made major enhancements to TM from April 2004 through July 2004.
Enhancements included simplifying the accounting codes, correcting the document
routing problem, providing ongoing training, and providing a telephone help-line for
users. ICE also added more servers to improve connectivity and reduce processing time.
Charts and other documentation that we reviewed showed improvements, such as more
travel documents passing TM's budget and audit checks in FY 2004, relative to the
volume of requests. We were unable to verify, however, whether those who raised these

  Source: Travel Manager's Road To SuccessMemorandum, dated September 2004
23Budget check entails determining whether adequate funds are available to obligate the travel
authorization or reimburse the travel claim.
Bureau ofImm;Oration and Customs Enforcement OCE)
AUDIT OFICE'S BUDGETARYSTATLASAND OTHERA
fial Reoort


concerns with Representative Turner continued to experience problems with the TM
system. As discussed in Background, the users who contacted the Representative's office
were unwilling to speak directly with either KPMG or the OIG.

2.3.3 Insufficient Funds for Inventory Purchases Could Not Be Supported

Background: According to Representative Turner's letter, employees were concerned that
pilots had gone for months without knowing whether they had sufficient funds to acquire
parts, fuel, and ammunition, or to perform critical repairs for their aircraft. ICE officials
attributed these concerns to Air and Marine Operations (AMO), which transferred into
ICE from legacy Customs. Before AM0 transferred to ICE, AM0 received its
apportionment, or authority to spend funds, all a t the beginning of the year. When AM0
transferred to ICE, AM0 started receiving quarterly apportionment^.^^ According to a n
AM0 budget official, AM0 worked with its vendor, which provided inventory tracking and
maintenance services, to plan and manage resources accordingly.

Observations: Based on our interviews of AM0 budget staff and our reviews of relevant
budget and procurement documents, we were not able to verify the employee concerns
about insufficient funds for inventory purchases. I t is important to note, however, that
without specific instances or without information on the location of the problem, as raised
to Representative Turner, it was not feasible to conduct further test work in this area,
given time restrictions.

2.3.4 Lack of Integration Made Procurements Hard to Track

Background: Representative Turner's letter cited concerns from ICE employees about the
difficulty in tracking procurements, such that financial personnel were unable to keep
track of the availability of funds for procurements.

Observations: As GAO reported in July 200325,the responsibility for procuring goods and
services was dispersed throughout legacy INS. I n a n attempt to improve or simplify the
procurement process, legacy INS made some structural changes in December 2003. This
procurement structure transferred into ICE a t its creation. Despite the changes,
however, many significant problems remained in ICE'S procurement management and
processes, a s reported by GAO. We noted a t the time of our audit that the procurement
system still remained disconnected from FFMS. However, for FY2005, ICE has made the
investment and is committed to integrating FFMS and the procurement system to allow
for better management of procurements and better tracking of funds availability,
especially a t the field level.




24 According to a Budget representative in AMO, AM0 had historically received an annual
apportionment of its budget at the onset of the fiscal year; however, as part of ICE, AM0 was
subjected to ICE'S quarterly apportionments for FY 2004.
25 Report to the Committee on Government Reform, House of Representatives (GAO-03-799),
Contract Management - INS Contracting Weaknesses Need Attention from the Department of
Homeland Security, dated July 2003
KPMG LLP KPMG LLP, a U S. Ihrmled liablllly pailnorslilp. 8s
a mcrnber of KPMG Inlernatanal a Sviiss assoctabm
                                                               17
Bureau of Immigration and Customs Enforcement (ICE)
AUDIT OFICES BUDGETARYSTATUSAND OTHERA R M OF CONCERN
&a. Report


2.3.5 Untimely Vendor Payments Were Relatively Small

Background: According to Representative Turner's letter, ICE employees indicated that
some vendors were not paid promptly because of FFMS problems. The Dallas Finance
Center (DFC), which manages vendor payments, acknowledged that delays could occur if
program offices did not input invoices into the system in a timely manner. Once invoices
are in FFMS, however, the DFC said it "swept" the system to timely process invoices and
schedule payments. They also said that when the Tri-bureaus were organized, some
confusion existed a s to which bureaus were responsible for vendor relationships and
invoices. ICE officials believed that such problems were minimal a t the time of our
review and said that the vendor payment process was being improved.

Observations: Based on our inquiries, review of internal ICE studies, and review of the
Department's financial statement audit work products, we found only insignificant
instances of late payments to vendors. Specifically, internal studies indicated untimely
invoice payments of less than two percent. The financial statement auditors statistically
sampled 65 vendor payments and found that 4 invoices totaling approximately $1.5
million were not paid within 30 days of invoice receipt; however, for those 4 instances,
ICE properly paid interest penalties, a s required by law. We did not have sufficient time
prior to completion of fieldwork to measure the impact of process inefficiencies or verify
the status of process improvements.
Bureau of Imm'gration and Customs Enforcement (ICE)
A m I T OFICES BLDGETARYSTATUSAhD OTHERAREAS OF CONCERN
f i a I Reoort


3.0 RECOMMENDATIONS
We recommend that the Assistant Secretary, ICE, consider the following:

Budget Issues:
  Perform a n in-depth analysis of ICE'S FY 2004 obligations and expenditures, a s well
  a s its suspense account activities, to determine compliance with the Antideficiency
  Act, once it can produce reliable financial data.
  Continue monitoring the FY 2004 Salaries and Expense account for compliance with
  the Anti-Deficiency Act.

F m S Functionality:
u Continue implementing changes to FFMS' configuration to better utilize its
  capabilities and correct the current problems with funds control and reporting.
  Continue training on the use of FFMS' improved functionality, especially covering
  funds control and reporting.

Procurement Tracking..
   Continue with its plans to integrate the procurement system with FFMS to manage
   procurement actions and track procurement commitments. By so doing, field office
   staff could have access, on a real time basis, to information that would allow them to
   better track the status of their procurement actions, better track procurement
   commitments, and better assess the availability of their funds.

We have not made recommendations regarding temporary employees, the TM system, and
vendor payments. ICE was not in a position to change temporary OPLA employees to a
permanent status, ICE appeared to have implemented remediation actions for TM, and
we were unable to validate significant problems with vendor payments within the time
allotted for fieldwork. Recommendations to address deficiencies found by the financial
statement auditors are contained in the Independent Auditors'Report for DHS' FY 2004
financial statements.




KPMG LLP KPMG LLP. a U S. hmlled lhabtltty pailneishtp ,s
a member of KPMG lnlcrnal~onala Swlss aasaclallon
Bureau afImmigration and Customs Enforcement (ICE)
A m I T OFICES BL%DGETARYSTATLJSAhDOTHERA R M OF CONCERN
Find Report


4.0 MANAGEMENT'S RESPONSE AND OUR ANALYSIS
I n a memorandum, dated April 7, 2005, from the Assistant Secretary, ICE, management
provided a n official commentary to these recommendations. Abstracts of ICE's comments
a r e provided below, and the full text of the memorandum is presented in section 4.3.

4.1       RECOMMENDATIONS

Recommendation I -Budget Issues:
      Perform a n in-depth analysis of ICE's FY 2004 obligations and expenditures, as well
      a s its suspense account activities, to determine compliance with the Antideficiency
      Act, once it can produce reliable financial data.
      Continue monitoring the FY 2004 Salaries and Expense account for compliance with
      the Anti-Deficiency Act.

ICE%Comment - ICE concurs in part with the recommendation. The response stated,
"ICE's Offie of financial Management (OFM) i s currently performing an in -depth
analysis of FYZOOI obligations and expenditures as part of FYZOOS Clean Action Plan
that will address full reconcilia tion of the impacted accounts. This review will be
completed June 2005. ICE does not concur with the OIGk statement regarding the
unreliability of the financial data."

KPIMGk Response - We find no basis for ICE's disagreement with our assessment of ICE'S
financial data reliability. Although ICE asserts that it monitored and managed its
accounts to prevent violations, it did not have adequate controls in place to ensure
success. As noted in our report, the FY 2004 DHS financial statement auditors' report for
fiscal year 2004 reported pervasive errors in ICE'S proprietary and budgetary accounts,
which resulted in the financial statement auditors' inability to complete their audit
procedures. As such, the financial statement auditors concluded that weaknesses in
controls a t ICE might have allowed ICE to violate the Antideficiency Act or might have
prevented management from knowing if ICE had violated the Antideficiency Act.

Recommendation 2 - F m S Functionality:
      Continue implementing changes to FFMS' configuration to better utilize its
      capabilities and correct the current problems with funds control and reporting.
      Continue training on the use of FFMS' improved functionality, especially covering
      funds control and reporting.

ICE%Comment - ICE concurs in part with the recommendation. The response stated,
 'TCE will contin ue to implement changes to FFMS that will address user requirements, as
well as enhance existing funds controls and reporting.. .However, the approval of future
FFMSmodifications must take into account DHS'plans and actions with respect to
eMerge2, as well as the availability of funds and personnel resources. [KPMG 'slreport
fails to recognize that in calendar year 2004 OFMprovided FFMS training to 780 users
from all 6 agencies.. ..FFMS training continues on an "as required" basis.. .For these
reasons we suggest replacing "design and conduct" with "continue training.. ."in this

KPMG LLP KPMG LLP a U S Ihmllea IlaSlIlly parlncrshlp. !s
a mcnlbcr of KPMG ln!einallowl a S w s s sssociaBon.
                                                            20
                    and Customs Enforcement QCE)
Bureau afImnunugration
AUDIT OFICES BUDGETARYSTATUSANDOTHERA



recommendation. ICE does not agree with the statement made on page 2, bullet 2, about
the lengthy learning curve and need for greater training.. .Extensive FFMS training has
been and continues to be provided. The status of ICE'S budget also impacts the depth and
scope of any additional FFMS training.'"

KPIMG's Response -We agree with ICE'S suggestion to change our recommendation from
"design and conduct training" to "continue training," but we have maintained our
observation with respect to a lengthy learning curve for employees transferring to ICE
from the legacy U S . Customs Service.

Recommendation 3 - Procurement Tkacking:
      Continue with its plans to integrate the procurement system with FFMS to manage
      procurement actions and track procurement commitments. By so doing, field office
      staff could have access, on a real time basis, to information that would allow them to
      better track the status of their procurement actions, better track procurement
      commitments, and better assess the availability of their funds.

ICE's Comment - ICE concurs with the recommends tion. The response stated, "a scope of
work for the PRISM/FFMS interface has been prepared and cost data developed. Full
implemen ta tion of this recommenda tion will be a high priority, "

KPIMGk Response -We provide no further comment.

4.2        OTHER MATTERS

On pages 1 and 2 of the memorandum, dated April 7, 2005, from the Assistant Secretary,
management disagreed with certain statements in our report. As previously noted, the
full text of the memorandum is presented in section 4.3. We have evaluated such
comments and have revised our report where we deemed necessary. In addition, in the
following paragraphs, we provide KPMG's responses to certain of these management
comments.

ICE's Comment - The comment stated, 'kenerally, because the employees who raised
concerns with former Congressman Jim Turner's staff were unwilling to speak with the
auditors, the auditors need to draw conclusions based on factual data versus speculation
about the information they might ha ve obtained from the employees. "

KPMG's Response- We drew conclusions and reported our findings based on information
gathered while performing certain audit procedures. However, a s we explained in section
1.3 - Limitations, we were unable to perform all of the procedures we believed necessary
to achieve all the objectives of our audit. For example, interviewing the complainants
was a key audit procedure t h a t we were unable to perform, and, hence, we were required
by generally accepted government auditing standards to describe any limitations on the
scope of our audit; any applicable audit standards that were not followed; and how not
following those standards could have affected the results of the audit. We believed t h a t
our conclusions, with respect to the audit objectives, might have been different had we
been able to meet with the complainants to gather specific information about their

KPMG LLP KPMG LLP, a U S imiled hablllly partnership   IS
a member of KPMG Inlernat,onal, a S w s s assmalloil
Bureau of Immipation and CustomsEnforcement &?El
AUDIT OFICES BLDGETARYSTATUSAND OTHERA R M OF CONCERN
f i a l Report


allegations. Accordingly, we have discussed this and other limitations on the scope of our
audit in our report.

ICEk Comment - The comment stated, 'YCE was requested by the Department of
Homeland Security's Office of the Chief Financial Officer to assume additional accounting
responsibilities for the Departmen t and its components. As [the report] i s currently
written, the draft implies that ICE volun tarily assumed these additional accounting
activities. ICE recommends [a] change to the language on page I [of the report to read].. .
ICE'S financial workload increased significantly because ICE was asked to assume
additional accounting functions for several DHS components.. .".

KPMGk Response -On pages 2 and 8, we have revised the report to read "ICE's financial
workload increased because ICE began performing additional accounting functions for
several major DHS components.. ."

ICEk Comment - The comment stated, "The discussion on page 8 concerningpotential
Antideficiency i s conjecture and should not be included,"

KPMGk Response -Representative Turner requested that the auditors look particularly
at any instances of ICE'S violation of the Antideficiency Act. In addressing this key
objective in our report, we clearly stated that this question could not be answered because
we could not rely on ICE's financial reports, due to the condition of the financial reports
and related controls. We further discussed the cause and effect of those conditions, as
required by auditing standards. These conditions increased the risk that ICE could have
violated the Antideficiency Act. Therefore, we believe that is what our report properly
conveys.

ICE%Comment - The comment stated, "ICE disagrees with the statement concerning the
Federal Financia./Management System (FFMS), made on page I I, paragraph 2 of the
report, 'FFMS as configured, did not readily accommodate the assignment of costs by
customer, and therefore, ICE had difficulty in tracking and accounting for the cost of
services i t provided to other burea us under reimbursable agreemen ts. " This sta temen t
ignores the significant delays in negotiatingreimbursable agreements among the legacy
agencies. Most of these agreements were not finalized until the fourth quarter of Fiscal
 Year (FY) 2004. Had agreements been completed prior to transition of the functions or in
early FY 2004, FFMS would ha ve been able to post all related transactions i n a timely
manner.. ."

KPMGk Response -We have revised our report to explain the challenges ICE faced, with
respect to tracking and assigning cost of services it provided to its customers. As noted on
page 11 of our report, throughout the first three quarters of fiscal year 2004, ICE
continued to incur costs on behalf of CBP and CIS, without the existence of reimbursable
agreements. In the absence of reimbursable agreements, ICE applied such costs against
its budget authority, as opposed to reimbursable authority. Therefore, ICE had difficulty
assigning and tracking customer costs in its financial system. This resulted in the need
for ICE's budget staff to expend considerable effort (a) tracking funds availability by
program area, (b) identifying, reconciling and reclassifying reimbursable costs, and (c)
negotiating and settling reimbursable agreements. Absent reimbursable agreements,

KPMG LLP. KPMG LLP. a U S !wiled liabhl, pailncrslllp      IS
a n m n b o r a f KPMG lnternalona! a S w s s assocal%on
                    and Customs Enforcement (ICE)
Bureau ofImnunugration
A LDIT OFICES BLDGETARYSTATUSAhG9OTHERA



there should have been a supportable mechanism in place to capture and assign costs by
customer.

ICE% Comment - The comment stated, "The reference to loss of several k e y accounting
personnel (page 2, bullet 2) does not adequately describe the scope and impact of these
losses.. .Beca use of ICE's financial circumstances and hiring restrictions, ICE was not
able to recruit and select replacements. During this same time ICE assumed additional
accoun ting responsibilities for the Departmen t..."

KPIMGk Response -We believe our report appropriately noted ICE's operational
challenges, including the loss of ICE's key accounting personnel and ICE's assumption of
additional accounting responsibilities for the Department.




I<PIAG LLP KPMG LLP, a U S limited liabilily parlncrshlp la
a member of KPMG Internat~onal a S w s s assoclallon
Bureau of Immipation and Customs Enforcement QCE)
ALIDIT OFICES BLIDGETARYSTATUSAhD OTHERAREAS OF CONCERN
fiaI Report


4.3        ASSISTANT SECRETARY OF THE U.S. IMMIGRATION AND CUSTOMS
           ENFORCEMENT MEMORANDUM
                                                                                                         0Jlr.r c!f lhr Assiwiunl & r ~ l o ~ j ~

                                                                                                         US. Depmrlmmt of Homclrnd Security
                                                                                                         415 I Slrm. NW
                                                                                                         Washington.DC 20536

                                                                                                         U.S.Immigration
                                                                                                         and Customs
                                                                                                         Enforcement




                                                                            April 7,2005

  MEMORANDUM FOR:                                                Richard Skinner
                                                                 Acting Inspector General
                                                                 Department of Homeland Security

   THROUGH:                                                      Randy Beardsworth
                                                                 Acting Under Secretary
                                                                                                 tY
   FROM:


   SUBJECT:                                                      Office of Inspector General (OIG) Draft Report: Audit of ICE'S
                                                                 Budgetary Status and Other Areas of Concern

   The following is to advise you of the actions U.S.Immigration and Customs Enforcement (ICE)
   plans fo take to implement the recommendations contained in the subject report, ICE concurs
   with the recommendations made in the report and has initiated steps to address the
   recommendations identified in the reporl. ICE would like to comment, however, on certain
   statements contained in the report:

                   Generally, because the employees who raised concerns with former Congressman Jim
                   Turner's staff were unwilling to speak with the auditors, the auditors need to draw
                   conclusions based on factual data versus speculation about the information they might
                   have obtained from these employees.

                   ICE was requested by Department of Homeland Security's Office of the Chief Financial
                   Officer to assume additional accounting responsibilities for the Department and its
                   components. As it is currently written, the draft implies that ICE voluntarily assumed
                   these additional accounting activities. ICE recommends the following change to the
                   language on page 1: "ICE'S financial workload increased significantly because ICE was
                   asked to assume additional accounting finctions for several DHS components.. ."




KPMG LLP KPMG LLP, a U S l i w l e d i l a b ~ l ~pailnewhq~,
                                                  ly        ,s
a member of KPMG Inlernalona!, a Snilrs assoclallon
Bureau of immigration and Customs Enfomernent (ICE)
ALDI!l' OFICES BLDGETARYSTATUSAhD OTHERA R M OF CONChRN
Final Report


Subject: Office of Inspector General Drafi Report: "Audit of ICE's Budgetary Status and Other
         Areas of Concern."
Page 2

 The discussion on page 8 concerning potential anti-deficiency is conjecture and should not be
 included. The OIG is currently reviewing whether ICE was in violation of the Antideficiency
 Act.

               ICE disagrees with the statement concerning the Federal Financial Management System
               (FFMS), made on page 11, paragraph 2 of the report, 'TFMS, as configured, did not
               readily accommodate the assignment of costs by customer, and therefore, ICE had
               difficulty in tracking and accounting for the costs of sewices it provided to other bureaus
               under reimbursable agreements." This statement ignores the significant delays in
               negotiating reimbursable agreements among the legacy agencies, Most of these
               agreements were not finalized until the fourth quarter of Fiscal Year (FY)2004. Had
               agreements been completed prior to transition of the fuactions or in early FY 2004, FFMS
               would have been able to post all related transactions in a timely manner. In addition,
               FFMS provides a control over the establishment of obligations against a reimbursable
               agreement's accounting string if the agreement has not been properly established in the
               system. ICE suggests the following statement more accurately reflects the situation:
               "FFMS provides controls for reimbursable agreements and allows for the accounting data
               to be available for posting all related transactions, Also, FFMS provides a control over
               the establishment of obligations against a reimbursable agreement's accounting string if
               the agreement has not been properly established in the system. In I   T 2004, the late
               establishment of reimbursable agreements contributed to delays in placing the agreements
               in FFMS."

        *      The reference to loss of several key accounting personnel {page 2, bullet 2) does not
               adequately describe the scope and impact of these losses. ICE'S Office of Resource
               Management { O M )lost senior, experienced employees in finance and budget
               immediately preceding the transition and thereafter. Because of ICE's financial
               circumstances and hiring restrictions, ICE was not able to recruit and select replacements.
               During this same time ICE assumed additional accounting responsibilities for the
               Department. ICE suggests adding the following: ?ICE lost very experienced,
               senior-level personnel and did not have funds available to recruit and select replacements.
               During this time, ICE financial management responsibilities grew substantially as they
               began servicing DHS directorates, including U.S.Citizenship and Immigration Services
               (CIS). Additionally ICE was integrating new activities and employees into the financial
               management systems, preparing and finalizing transition plans to incorporatg the
               Federal Protective Service's (FPS) tinancial business in FY 2005 and transferring
               outstanding financial activities to U.S. Customs and Border Protection (CBP). In
               addition, all actions to reconcile and transfer Border Patrol and other impacted
               organizations occurred."




KPMG LLP KPMG LLP. a U S Iimlled ltabhly pailnershlp. is
a member of KPMG Inlernallonal a Svms assmallon
Bureau of Imrmrmgration
                     and Customs Enforcement (ICE)
ALJDIT OF ICES BLJDGETARYSTATUS AhD OTHERAREAS OF CONCERN
                                                                         --




  Subject: Offtce of Inspector General Draft Report: "Audit of ICE'S Budgetary Status and Other
           Areas of Concern."
  Page 3

  Recommendation 1: Budget Issues:

                Perform an in-depth analysis of ICE'S F'Y 2004 obligations and expenditures, as well as
                its suspense account activities, to determine compliance with the Antideficiency Act,
                once ~Gliablefinancial data is produced.

                Continue monitoring the FY 2004 Salaries and Expense account for compliance with the
                Antideficiency Act.

  Concur in Part: ICE'S Office of Financial Management (OFM) is currently performing an in-
  depth analysis of FY 2004 obligations and expenditures as part of the FY 2005 Clean Action
  Plans that will address full reconciliation of the impacted accounts. This review will be
  completed by June 2005. ICE does not concur with the OIG's statement.regarding the
  unreliability ofthe financial data. As currently configured, FFMS hctionality provides for and
  requires funds management in support of AntideficiencyAct requirements. In FY 2004, the
  accounts were monitored and managed to ensure violations did not occur. ICE "re-tooled" its
  financial system to limit the number of people with the ability to obligate prior year funding and
  developed a daily report to provide the status of FY 2004 prior ycar available funds. A central
  point of contact was named to process restorations and monitor available FY 2004 prior year
  finds. Implementation of these procedures has resulted in an increase in the control of prior year
  available fwnding and allowed ICE to prioritize requests for prior year fhding. Any real, rather
  than potential, unfunded liabilities processed through FFMS will be clearly highlighted and
  identified through normal processing.

   Recommendation 2: FFMS Functionality:

               Continue implementing changes to FFMS to correct the current problems with funds
               control and reporting.

               Design and conduct training on the use of FFMS' improved hnctionality, especially
               covering funds control and reporting.

   Concur in Part: ICE will continue to implement changes to FFMS that will address user
   requirements, as well as enhance existing funds control and reporting. In calendar year 2004, the
   following enhancements were made to FFMS: 10 new reports were developed; 6 reports
   redesigned and enhanced; 6 screen/processing enhancements; and 3 data migration efforts
   completed. However, the approval of future FFMS modifications must take into account DHS'
   plans and actions with respect to eMerge2, as well as the availability of funds and personnel
   resources. The 01G report fails to recognize that in calendar year 2004 OFM provided FFMS
   training to 780 users from all 6 agencies. To further complicate this training effort, many users
   did not attend their scheduled training, requiring OFM to conduct additional classes. FFMS
   training continues on an "as required" basis. Training videos are available for use at any time for
   new or refresher training. For these reasons we suggest replacing "design and conduct" with


KPIMG LLP KPMG LLP, a U S Iimlled llabllly pailncisl~~p,
                                                      is
a mcmber of KPMG Inleriiatlonal, a S w s s associalon
Bureau oflmmigrationand CustomsEnforcement mE)
ALDIT OFICFS BLDGETARYSTAW S A N D OTHERA R W OF CONCERN
Elinal Reoort


   Subject: Office of Inspector General Draft Report: "Audit of ICE's Budgetary Status and Othw
            Areas of Concern."
   Page 4

   "continue training.. ." in this recommendation. ICE does not agree with the statement made on
   page 2, bullet 2, about the lengthy learning curve and need for greater training. Extensive
   FFMS training has been and continues to be provided. The status of ICE's budget also impacts
   the depth and scope of any additional FFMS training.

    Recommendation 3: Procurement Trackhg:

                 Continue with plans to integrate the procurement system with FFMS to manage
                 procurement actions and track procurement commitments. By so doing, field office staff
                 could have access, on a real time basis, to information that would allow them to better
                 track the status of their procurement actions, better track procurement commitments, and
                 better assess the availability of their funds.

    Concur: ICE concurs with adopting this recommendation. A scope of work for the
    PRISIWFFMS interface has been prqared and cost data developed, Full implementation of this
    recommendation will be a high priority ICE will work to implement the recommendation and
    will be able to accelerate the implementation when additional resources are made available.




I<PMG LLP KPMG LLP, a U S lhmiled l i a b ~ l ~parlnerslvp
                                               ly          is
a rnernbai of KPMG Inleroallonal, a SWISSa s s m a t o n
Bureau of Immipation and Customs Enforcement @CE)
AUDIT OF ICES BLlDGETARYSTATUSAILII OTHERA R W OF CONCERN



                       APPENDIX A: LIST OF DOCUMENTS REVIEWED
GAO-05-81- Homeland Security, Management Challenges Remain in Transforming
Immigration Program

GAO- 04-329R - FTE transfers to DHS

GAO-03-799 - Contract Management

GAO-03-1134T - DHS- Challenges and Steps in Establishing Sound Financial
Management

GAO- 04-945T - DHS Financial Management Challenges

GAO-04-865R - Status of Key Recommendations

JFMIP-SR-02-01- Core Financialsystem Requirements

OMB Circular A- 127 - Financial Management Systems

KPMG Financial Audit Process Analysis Documents (all key transaction cycles)

ICE Budget Mitigation Plan

Homeland Security Financial Systems Analysis, Final Report, dated December 27, 2002,
prepared by SAIC

Bureau of Immigra tion and Customs Enforcement, Functional Comparison of the Federal
Financial Systems (FFS) and the Federal Hnancial Management System (FFMS), dated
August 22,2003

Homeland Security, Budget i n Brief, fiscal year 2005

ICE Budget in Brief Presentation, dated March 2004

Public Law 108-90, dated October 1, 2003




IKPMG LLP KPMG LLP, a U S I~rnlledl~abllllyparlncrshp, is
a nienlhor of KPMG InLernai~onala S P S Sassoc\at~On
Bureau ofImmigration and Customs Enfomement (ICE)
ALDIT OFICES BWGETARYSTATUSAND OTHERA R M OF CONCERN




                                 APPENDIX B: LIST OF ABBREVIATIONS
      Acronym                                                   Description

AM0                                   Air and Marine Operations Interdiction (within ICE)
BTS                                   Border and Transportation Security Directorate
CBP                                   Customs and Border Protection
CIS                                   Citizenship and Immigration Services
DHS                                   Department of Homeland Security
FEMA                                  Federal Emergency Management Agency
FFMS                                  Federal Financial Management System (currently known as
                                      Altimate)
FFS                                   Federal Financial System
FTE                                   Full-Time Equivalent
FY                                    Fiscal Year
GAO                                   Government Accountability Office
ICE                                   Immigration and Customs Enforcement
IBM                                   International Business Machines Corporation
INS                                   Immigration and Naturalization Service
JFMIP                                 Joint Financial Management Improvement Program
KPMG                                  KPMG LLP
OIG                                   Office of Inspector General
OMB                                   Office of Management and Budget
OPLA                                  Office of the Principal Legal Advisor
S&E                                   Salaries and Expenses
SAIC                                  Science Applications International Corporation
TM                                    Travel Manager
TSA                                   Transportation Security Administration




KPMG LLP KPMG LLP, a U S Ihm~iedliabllhly partnership is
a member of KPMG lnternaloinl a Swlss assoclatlon
Bureau ofImmipation and Customs E-ement QC@
A LJDIT OF ICES BLIDGETARYSTATUSAhll OTHERA R M OF CONCERN




        APPENDIX C:REPRESENTATIVE TURNER'S LETTER




                                        June 14,2004


  The Honorable Clark Kent Ervin
  Inspector General
  Department of Homeland Sccurity

 Dear Mr. Ervin:

         I am deeply concerned about reports my staff are receiving from various personnel at the
 Bureau of Immigration and Customs Enforcement (ICE) about significant problems associated
 with the unit's budget and financial systems. We all me aware of the much publicized suspected
 $1.2 billion budget shortfall which led to a hiring freeze involving ICE. Although later
 explained as an accounting error, this event raised very serious questions about whether the
 off~ceactually has control over its budget.

         More recently, my staff have received indications that ICE continues to face challenges
 with its budget and financial systems that simply do not work. I understand that deficiencies in
 the ICE Federal Financial Management System (FFMS) are so severe that they place the bureau
 at risk of violating the Anti-Deficiency Act, a key federal law which restricts agencies from over-
 obligating appropriated funds. In the past, violations ofthe Act have resulted in the demotion and
 removal of high-ranking federal officials and carry criminal penalties of fines up to $5,000, or a
 maximum 2 years imprisonment, or both. Such a serious viotation within ICE could serve as a
 source o f extreme embarrassment for the department at large, a situation that DHS cannot afford
 so early in its transformation.

         As you know, the Anti-Deficiency Act outlines very specific prohibitions. Generally,
 under the law, agencies cannot (I) spend beyond the amount available in an appropriation or
 h d unless authorized by law, (2) involve the government in any contract or other obligation for
 payment of money for any purpose in advance of appropriations, unless the authorized by law,
 and (3) accept voluntary services, or employ personal services in excess of that authorized by
 law, except in cases of certain emergencies. The Act further prohibits agencies fkom spending or
 obligating funds in excess of amounts permitted by regulations,

         My staff interviewed ICE staff at DHS headquarters and in three large and important field
 offices. These conversations revealed a severe lack of confidence tlmt the FFMS is providing
 decision-makers with accurate, useful, and timely information. As a result, the ICE staff have
 told us that their units run the risk of aver spending their appropriations by the end of fiscal year
Bureau ofImmigrationand C u ~ t o m
                                  Enforcement
                                    ~         (ICE)
AUDIT OFICES BlDGETARYSTATUSAND OTHERA




  2004 and violating the Anti-Deficiency Act. Consider the folIowing concerns expressed by the
  staff stemming from their inability to pinpoint the amount of funds avaiIable for important
  functions due to problems wirh the FFMS and budget-related matters:

         Problems with financial systems have crippled the ability of managers and staffto fulfil1
         their responsibilities. For example, travel data bases and other functions have been shut
         down for days because ICE had temporarily run out of money. ICE has also been unable
         to noti8 temporary employees as to whether they would be able to employ them on a
         permanent basis.

         Funds are being shifted to ICE from other parts of the Border and Transportation Security
         Directorate on a daily basis to avoid budget shortfails and handle expenditures. These
         short-term "fixes'? are not addressing ICE'S systemic budget di.fficulties.

         Pilots have gone for months without k,nawing when, or if, they would acquire hel, parts,
         and ammunition for their aircraft. Some are concerned that their offices may run out of
         money for critical repairs.

         Existing procurements are hard to track. As a result, financial staffare not ablc to keep
         track of how much they have available to spend on contracts. They must go directly to
         contractors to obtain that information.

         FFMS does not contain consolidated financial information. Staff need to run xnultiple
         reports and combine information manually to get a Nl picture of how much to spend.
         This Ieads to uncertainty about the amount of money available for travel, not to mention
         funds for vehicle and inventory procurements.

        Some vendors are not getting paid promptly because the FFMS is not properly equipped
        for vendor payments. ICE has not adjusted the system to correct these difficulties.

         The concerns about the FFMS are not new, General Accounting Office (GAO) reports
 exposed problems with the system when it was used at the former Immigration and
 Naturalization Service. Apparently, many of the issues GAO cited were not resolved during the
 system's realignment to ICE. It is puzzling to me that the department would chose to stay with a
 system that was SO widely recognized as inherently flawed. Unless department has well-
 integrated and reliable financial systems that enable managers to administer programs and
 control spending, it cannot eficiently fulfill its mission of protecting the homeland,

          I therefore request that you initiate an audit to review the FFMS system and, more
 importantly, examine larger budget problems at ICE-particularly any violations of the Anti-
 Deficiency Act. It is imperative that you complete your audit by November of this year so that
 its results can be used to improve the financial situation at ICE and make bureau managers better
 stewards of taxpayer dollars.
Bureau of I&pa t i and Customs Edomemen t (ICE)
A D I T OFICES BDGETARYSTATUSAND OTHER AREAS OF CONCERN




        As always, I stand ready to work with you in any way possible. Should you or your staff
 have questions, do hot hesitate to contact Mr. John Sopko, General Counsel, at 226-8833 or Mr.
 Glenn Davis at 226-885 1 of my staff. 1 look         to the resuits of your audit.




 XPMG LLP I<PMG LLP. a U S llnlled llab~l;lypartiicrslw 's
 a inember of KPMG Inleinational. a SWISS 3 ~ ~ 0 ~ l a l l o n
Report Distribution




Department of Homeland Security

Secretary
Deputy Secretary
Executive Secretariat
Chief of Staff
General Counsel
Under Secretary, Border and Transportation Security
Under Secretary, Management
Assistant Secretary for Public Affairs
Chief Financial Officer
Chief Security Officer
OIG Liaison

Immigration and Customs Enforcement

Assistant Secretary for Immigration and Customs Enforcement
Chief Financial Officer
OIG Liaison

Customs and Border Protection

Commissioner, Customs and Border Protection
Chief Financial Officer
OIG Liaison

Citizenship and Immigration Services

Director, Citizenship and Immigration Services
OIG Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Program Examiner

Congress

Committee on Homeland Security and Governmental Affairs
United States Senate

Committee on Homeland Security
United States House of Representatives

Congressional Oversight and Appropriations Committees, as appropriate
Additional Information and Copies

To obtain additional copies of this report, call the Office of lnspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of lnspector
General, Investigations Division - Hotline. The OIG seeks to protect the
identity of each writer and caller.
